    SIGAR                                                        Special Inspector General for
                                                                  Afghanistan Reconstruction




                                                                               SIGAR Inspection 13-2


       WARDAK PROVINCE NATIONAL POLICE
       TRAINING CENTER: CONTRACT
       REQUIREMENTS GENERALLY MET, BUT
       DEFICIENCIES AND MAINTENANCE ISSUES
       NEED TO BE ADDRESSED




                                                                                        OCTOBER
                                                                                        2012

SIGAR Inspection 13-2/Afghan National Police National Police Training Center
                                                    October 2012



SIGAR
                                                    Wardak Province National Police Training Center: Contract Requirements
                                                    Generally Met, but Deficiencies and Maintenance Issues Need to be
                                                    Addressed


Special Inspector General for                       SIGAR INSPECTION 13-2
Afghanistan Reconstruction

                                                    WHAT SIGAR FOUND
                                                    Most buildings and facilities were being used for their intended
                                                    purposes. However, although the building intended as a fire
                                                    station met contract requirements, the NPTC did not have any
                                                    firefighters or firefighting equipment. The living quarters intended
                                                    for firefighting staff were being used to billet visiting personnel.
                                                    Although SIGAR found some construction deficiencies, construction
WHAT SIGAR REVIEWED                                 quality at the NPTC generally met contract specifications.
In January 2009, the U.S. Army Corps                Deficiencies include roof leaks around the vehicle exhaust
of Engineers-Afghanistan Engineer                   ventilation pipes in the vehicle maintenance building and a missing
District (USACE-TAN) awarded a firm-                storm water outlet grating in the perimeter wall, which could
fixed-price contract to Technologists               enable a person to gain unauthorized access to the compound. In
Inc. to design and build a new                      addition, lack of maintenance had allowed silt and construction
campus facility for the National Police             debris to accumulate in the storm drain system, which could result
Training Center (NPTC) in Wardak                    in flooding and sediment buildup.
province. Award value for two
construction phases totaled $98.1                   WHAT SIGAR RECOMMENDS
million. As part of its inspection                  SIGAR recommends that the Commanding General, USACE, take
program, the Special Inspector                      action to (1) repair roof leaks around the vehicle exhaust
General for Afghanistan                             ventilation pipes in the vehicle maintenance building, (2) repair the
Reconstruction (SIGAR) conducted a                  missing storm water outlet grating in the perimeter wall, and (3)
site inspection at the NPTC to assess               regularly clean silt and construction debris from the storm drain
construction quality, facilities usage,             system. USACE-TAN concurred with these recommendations and
and maintenance. The inspection                     noted some steps being taken to implement them. SIGAR is
focused on buildings and major                      closing a fourth recommendation after reviewing additional
infrastructure components                           information provided by USACE.
In preparation for its site inspection,
SIGAR reviewed contract documents,
technical specifications, design
documents, geotechnical reports, and                                                                  Missing Grate Could Allow
quality control and quality assurance                                                                 Unauthorized Access
reports. SIGAR conducted the site
inspection from April 23 to 26, 2012.
SIGAR conducted its work in Wardak
province and in Kabul, Afghanistan
from January to October 2012, in
accordance with Quality Standards
for Inspection and Evaluation
published by the Council of the
Inspectors General on Integrity and
Efficiency.



      For more information contact SIGAR Public Affairs at (703) 545-5974 or sigar.pentagon.ccr.mbx.public-affairs@mail.mil.
October 30, 2012


General James N. Mattis
  Commander, U.S. Central Command

General John R. Allen
  Commander, U.S. Forces-Afghanistan, and
  Commander, International Security Assistance Force

Lieutenant General Daniel P. Bolger
   Commanding General, NATO Training Mission-Afghanistan/
   Combined Security Transition Command-Afghanistan

Lieutenant General Thomas P. Bostick
   Commanding General and Chief of Engineers
   U.S. Army Corps of Engineers




This report discusses the results of an inspection of the U.S. Army Corps of Engineers (USACE)
National Police Training Center (NPTC) construction project in Wardak province, Afghanistan by
the office of the Special Inspector General for Afghanistan Reconstruction (SIGAR). Our
inspection found that most buildings and infrastructure components met contract
specifications and were being used as intended. However, we noted some construction
deficiencies and maintenance issues. This report includes three recommendations to the
Commanding General, USACE, to ensure that these deficiencies are addressed in accordance
with contract requirements and applicable construction standards. A fourth recommendation
from our draft report is being closed after our review of additional information provided by
USACE.
SIGAR conducted this inspection under the authority of Public Law 110-181, as amended, the
Inspector General Act of 1978, and the Inspector General Reform Act of 2008 in accordance
with Quality Standards for Inspection and Evaluation published by the Council of the Inspectors
General on Integrity and Efficiency.




John F. Sopko



Special Inspector General
  for Afghanistan Reconstruction
Background .................................................................................................................................................................. 1 
Most Facilities Used as Intended and Construction Quality Generally Met Contract Specifications, but Some
    Deficiencies Noted .............................................................................................................................................. 1 

Recommendations ...................................................................................................................................................... 4 
Comments .................................................................................................................................................................... 4 
Appendix I - Scope and Methodology ......................................................................................................................... 5 

Appendix II - NPTC Site and Locations Inspected ...................................................................................................... 6 
Appendix III - Summary of Contract ............................................................................................................................ 7 
Appendix IV - Comments from the NATO Training Mission-Afghanistan/Combined Security Transition Command-
    Afghanistan ....................................................................................................................................................... 10 

Appendix V - Comments from the U.S. Army Corps of Engineers ............................................................................ 11 
Appendix VI - Acknowledgments ............................................................................................................................... 14 


TABLES

Table 1 - Buildings and Infrastructure Components Inspected Were Mostly Used as Intended ............................ 2 

Table I - Phase I Scope of Work .................................................................................................................................. 7 
Table II - Phase II Scope of Work ................................................................................................................................ 9 


FIGURES

Figure 1 - Roof Leakage with Wet Insulation at Vehicle Maintenance Building....................................................... 3 
Figure 2 - Storm Water Ditch Clogged with Sediment ............................................................................................... 3 

Figure 3 - Storm Water Ditch Missing Security Grate ................................................................................................ 3 
Figure I - Map of Site with Locations Inspected by SIGAR ......................................................................................... 6 




ABBREVIATIONS & ACRONYMS

                    ANP                                Afghan National Police
                    NPTC                               National Police Training Center
                    SIGAR                              Special Inspector General for Afghanistan Reconstruction
                    TAN                                Afghanistan Engineer District-North
                    USACE                              U.S. Army Corps of Engineers



SIGAR Inspection 13-2/Afghan National Police Training Center                                                                                                         Page ii
An objective of coalition efforts in Afghanistan is to build the country’s capacity to provide for its own security
by training and equipping the Afghanistan National Security Forces, which include the Afghan National Police
(ANP) and the Afghan National Army.1 The Combined Security Transition Command-Afghanistan, through the
Afghanistan Security Forces Fund, provided over $98 million to the U.S. Army Corps of Engineers (USACE) to
construct an ANP National Police Training Center (NPTC), located in Wardak province southwest of Kabul,
Afghanistan.
For this inspection, we assessed the quality and maintenance of construction and site improvements for
facilities located at the training center. Specifically, we determined whether construction was completed in
accordance with contract requirements and applicable construction standards and whether facilities were
being used as intended.
We conducted this inspection in Kabul, Afghanistan, and at the NPTC in Wardak province, from January to
October 2012, in accordance with the Quality Standards for Inspection and Evaluation, published by the
Council of the Inspectors General on Integrity and Efficiency. The engineering assessments were conducted in
accordance with the Code of Ethics for Engineers. Appendix I contains more detail on our scope and
methodology; appendix II contains a map of the NPTC site and the locations inspected.


BACKGROUND

USACE-TAN 2 awarded a firm-fixed-price contract (W917PM-09-C-0005) on January 5, 2009, for $96.1 million
to Technologists Inc. Through a series of amendments, contract cost increased by an additional $2.1 million
as of December 3, 2011.
The contract was for design, site-adaptation, and construction of a new campus facility—the NPTC—for the ANP
to be located in Wardak province in Afghanistan. Phase I construction included the design, material, labor, and
equipment to construct buildings, ranges, roads, parking, utilities and other infrastructure features for 1,000
ANP students and 500 support staff by April 20, 2010. Phase II included construction to accommodate an
additional 2,000 students by March 31, 2011. Appendix III summarizes the scope of phases I and II.
Maintenance of completed projects is performed under an operation and maintenance contract administered
by USACE.


MOST FACILITIES USED AS INTENDED AND CONSTRUCTION QUALITY
GENERALLY MET CONTRACT SPECIFICATIONS, BUT SOME DEFICIENCIES
NOTED

Our inspection of the Wardak NPTC from April 23 to 26, 2012, found that buildings and facilities were generally
used as intended and constructed in accordance with contract specifications, but we observed several
construction and maintenance deficiencies. The inspection focused on key buildings and critical infrastructure
components of sewer, water, and power generation. At the time of our visit, phase II construction was nearing
completion, with minor items remaining on a few buildings. As originally intended, ANP personnel were
occupying most phase I buildings. Life support facilities, such as the wastewater treatment and electrical
generation plants, had only recently been commissioned and were being operated and maintained by the



1 According to the Report on Progress toward Security and Stability in Afghanistan, dated April 2012, the Afghan National

Security Forces are ahead of schedule to achieve the end-strength of 352,000 by October 2012.
2In 2009, the Afghanistan Engineer District (AED) was divided into two districts—the North (now referred to as USACE-TAN)
was established in 2004 and the South was added in 2009.




SIGAR Inspection 13-2/Afghan National Police Training Center                                                        Page 1
USACE-TAN operation and maintenance contractor. As part of phase I, coalition forces and USACE-TAN
personnel occupied an international compound.3


Most Buildings and Infrastructure Components Inspected Met Contract Specifications and
Were Being Used as Intended, but Fire Station Was Used for Visitor Billeting
The buildings and other components that we inspected and listed in table 1 were constructed in accordance
with contract requirements and specifications, and almost all of these facilities were being used as intended.
An exception was the building intended as a fire station—a two-bay garage, single story pre-engineered
building4 with attached offices and berthing areas and paved parking aprons in the front and back of the
building. At the time of our inspection, it contained no firefighting vehicles, and no firefighting personnel had
been assigned to the NPTC. According to USACE-TAN personnel, the building was being used as billeting for
visiting personnel. In addition, the building intended as an ammunition supply point was being used for vehicle
storage, and a warehouse was being partially used as a dining facility. In its response to this report, USACE-
TAN stated that completed construction projects at the Wardak NPTC are turned over to NTM-A/CSTC-A for use
by the ANP and that USACE has no control over how these facilities are used.

    Table 1 - Buildings and Infrastructure Components Inspected Were Mostly Used as Intended
                      Item                Building Number                              Actual Use

    Ammunition supply point              140                   Used as vehicle storage

    Barracks                             105                   Used as intended

    Bulk fuel facility                   136                   Used as intended

    Dining facility                      126                   Used as intended

    Electrical power plant               137                   Used as intended

    Fire station                         134                   Used as billeting for visitors

    International compound               Various               Used as intended

    Maintenance building                 133                   Used as intended

    Medical clinic                       104                   Used as intended

    Potable water system                 N/A                   Used as intended

    Road network                         N/A                   Used as intended

    Site grading                         N/A                   Used as intended

    Storm water system                   N/A                   Used as intended

    Vehicle fueling station              135                   Used as intended

    Warehouse                            128                   Partially used as dining facility

    Wastewater treatment plant           144                   Used as intended

    Source - SIGAR inspection April 23-26, 2012


3 Theinternational compound is a separate compound within the Wardak NPTC. It houses international coalition personnel
and the USACE-TAN project office. The international compound will eventually be transferred to the ANP.
4Phase I buildings consisted of pre-engineered buildings constructed of sheet metal attached to steel frames. Phase II
buildings were constructed from structural concrete and concrete masonry units.




SIGAR Inspection 13-2/Afghan National Police Training Center                                                       Page 2
NPTC Has Some Construction Deficiencies and Maintenance Issues
Construction quality at the vehicle maintenance building generally met contract specifications; however, we
observed some minor deficiencies. This facility is a pre-engineered (steel frame with steel roof) building with
six maintenance bays, two of which had maintenance pits for easier access to vehicle undercarriages.
Contractor personnel were being used to assist the ANP with vehicle maintenance. We observed that 3 of the
6 bays were occupied, and work was ongoing with various vehicle repairs. However, the building had minor
roof leaks around the pipes used to carry vehicle exhaust out of the building, as shown in figure 1, and we
observed standing water on the floor as a result of these leaks.

During our site visit, we also observed that
some storm water ditches had construction
                                                      Figure 1 - Roof Leakage with Wet Insulation at
debris and sediment and needed to be cleaned.         Vehicle Maintenance Building
Near the NPTC storm water discharge point, one
ditch was almost completely blocked with                                                                    Dark brown
sediment (see figure 2). From the amount of                                                                 area indicates
                                                                                                            wet insulation.
sediment observed, it is likely these deposits
were the result of several storms. The
accumulated sediment and debris caused the
storm water ditch to overflow, resulting in
flooding and sediment buildup. In addition, a
missing storm water grate at the perimeter wall
is a security concern (see figure 3), because it is
large enough to allow a person to crawl through                                                  Pipe to ventilate
and gain unauthorized access to the compound.                                                    vehicle exhaust
                                                                                                 extends through roof.




                                                      Source: SIGAR photo Wardak April 26, 2012.



Figure 2 - Storm Water Ditch Clogged with Sediment             Figure 3 - Storm Water Ditch Missing Security Grate




Source: SIGAR photo Wardak April 25, 2012.                     Source: SIGAR photo Wardak April 25, 2012.




SIGAR Inspection 13-2/Afghan National Police Training Center                                                    Page 3
RECOMMENDATIONS

To ensure that construction is completed in accordance with contract requirements and applicable
construction standards at the NPTC, SIGAR recommended that the Commanding General, USACE, direct
USACE-TAN to take the necessary actions to correct the deficiencies that we identified and determine a
resolution that is in the best interest of the U.S. government to avoid unnecessary additional government cost.
Specifically, we recommended that USACE-TAN take action to
    1. replace diesel fuel tank grounding connections with those specified in the design documents to avoid
       a potentially dangerous condition;

    2. repair roof leaks around the vehicle exhaust ventilation pipes in the vehicle maintenance building;
    3. repair the missing storm water outlet grating in the perimeter wall, which could enable a person to
       gain unauthorized access to the compound; and

    4. regularly clean silt and construction debris from the storm drain system.


COMMENTS

We provided a draft of this report to NTM-A/CSTC-A and USACE-TAN for comment. NTM-A/CSTC-A concurred
with all of our recommendations, but it noted that the roof leaks are construction-related and should be
handled by the construction agent. It further stated that the issues in recommendations 2 and 3 are
considered routine maintenance and will be addressed with Afghan facility engineers through the NTMA
infrastructure training and advisory team. NTM-A/CSTC-A’s comments are reproduced in appendix IV of this
report.
USACE-TAN did not concur with our first recommendation and provided additional documentation that the fuel
tank ground connections were completed in accordance with contract requirements and applicable
construction standards. After reviewing this information, we agree with USACE-TAN’s assessment and will
close the first recommendation as implemented. However, we encourage USACE-TAN to update the “as-built”
drawings to match the design documents and to take steps to implement and document actions to address
the remaining three recommendations.
USACE-TAN concurred with recommendations 2-4 and noted some steps being taken to implement them, but it
lacked specific evidence to demonstrate that the roof leaks and missing storm grate have been repaired. For
example, USACE-TAN stated that, based on final inspections in May 2012, construction of the vehicle
maintenance building was substantially complete and that it had provided SIGAR documentation of
construction status. However, these documents and USACE-TAN’s comments lacked evidence that the
contractor repaired the leaks in the roof. USACE-TAN also stated that the storm water outlet was completed in
accordance with contract requirements and applicable construction standards but did not provide a
completion date. We will follow up with USACE to verify whether the roof leaks and storm water outlet grating
issues have been fully addressed.
Regarding recommendation 4, USACE-TAN stated that the contracting officer’s representative for the operation
and maintenance contract is verifying the current condition of drainage areas and structures. USACE-TAN
added that it will request that the operation and maintenance contractor check all drainage structures and
related areas as part of its routine monthly preventive maintenance inspection and have the responsible
contracting officer’s representative verify the actions taken. We believe that these planned actions will be
responsive to the recommendation.
USACE-TAN also provided technical comments, which we incorporated into this report, as appropriate. USACE-
TAN comments are reproduced in appendix V.



SIGAR Inspection 13-2/Afghan National Police Training Center                                             Page 4
APPENDIX I - SCOPE AND METHODOLOGY

This report provides the results of project assessment of the Afghan National Police Training Center (NPTC) in
Wardak Province by the office of the Special Inspector General for Afghanistan Reconstruction (SIGAR). This
inspection report is one in a series of four inspections of construction projects contracted by the U.S. Army
Corps of Engineers (USACE).
To determine whether the construction was completed in accordance with contract requirements and
applicable construction standards, we
       reviewed contract documents, design submittals, and geotechnical reports to understand project
        requirements and contract administration;
       interviewed cognizant U.S. and Afghan government officials responsible for the construction project;
        and
       conducted inspections at the NPTC to observe the current status of the quality of construction and
        photograph construction deficiencies.
To determine if the facilities were being used as intended and if they were being sustained, including operation
and maintenance, we
       reviewed quality management documentation to understand project requirements and the
        contractor’s quality control and government quality assurance processes; and
       interviewed cognizant U.S. and Afghan government officials responsible for the construction project.
We were unable to verify early construction activities, such as foundation work and underground utilities at the
NPTC, because the early stages of the construction had been buried, and construction photographs pertaining
to the early months of construction were unavailable for our review. We determined the extent to which quality
control and quality assurance was documented by reviewing quality control reports and quality assurance
reports, contract specifications, and design documents.
We conducted work in Kabul, Afghanistan; the USACE NPTC Project Office; and the NPTC in Wardak province
from January to October 2012, in accordance with the Quality Standards for Inspection and Evaluation,
published by the Council of the Inspectors General on Integrity and Efficiency. These standards were
established to guide all inspection work performed by the Offices of Inspector General. The engineering
assessments were conducted by licensed professional engineers in accordance with the NSPE Code of Ethics
for Engineers. We did not rely on computer-processed data in conducting this inspection. We considered the
impact of compliance with laws and fraud risk.
We believe that the evidence obtained provides a reasonable basis for our findings and conclusions based on
our inspection objectives. This inspection was conducted by SIGAR under the authority of Public Law 110-181,
as amended, the Inspector General Act of 1978, and the Inspector General Reform Act of 2008.




SIGAR Inspection 13-2/Afghan National Police Training Center                                             Page 5
APPENDIX II - NPTC SITE AND LOCATIONS INSPECTED

Figure I - Map of Site with Locations Inspected by SIGAR




Source: USACE-TAN. Note: We highlighted in green the locations that appeared to meet contract specifications. Locations
highlighted in red indicate areas where SIGAR noted quality or maintenance issues.




SIGAR Inspection 13-2/Afghan National Police Training Center                                                     Page 6
APPENDIX III - SUMMARY OF CONTRACT

The National Police Training Center (NPTC) was constructed under a firm-fixed-price contract (W917PM-09-C-
0005), awarded on January 5, 2009, for $96,090,519 with an original completion date of March 31, 2011.
The contract had 28 amendments that increased the contract cost by $2,111,765 to a current total of
$98,202,285 and extended the completion date to October 20, 2011.
Table I shows the scope of work for phase I of the design-build contract.

Table I - Phase I Scope of Work
                 Item               Building Number                            Description

                                                         Capable of providing ammunition storage for phases I
Ammunition supply point             140
                                                         and II

Arms storage building               141                  Capable of providing arms storage for phases I and II

Central issue warehouse             128                  With roll-up doors and windows

Central receiving warehouse         129                  With roll-up doors and windows

Combined administration and
                                    100                  N/A
headquarters building

                                                         Capable of providing communications equipment for
Communication building              103
                                                         phases I and II

Community building                  131                  N/A

Concrete bunkers                    N/A                  For 1,000 students and 500 staff

Department of Public Works
                                    132                  N/A
building and warehouse

Eastern hillside guard towers       N/A                  N/A

Entry control points                N/A                  Guard shack with drop arm

                                                         For 500 students (two barracks; administration; medical
Fenced new recruit compound         228-232              clinic; morale, welfare, and recreation facility (with
                                                         cogeneration heat)

Fire station                        134                  N/A

Guard towers                        N/A                  Living quarters

Helipad                             146                  N/A

International training team                              Five buildings, stone perimeter wall, two gates, water
                                    121-125
compound                                                 storage, and generator

Medical clinic                      104                  Centrally located between phases I and II

                                                         Exposed aggregate concrete with bronze letters,
Monument sign                       N/A
                                                         graphics, and lighting

Multi-purpose track and reviewing
                                    147                  N/A
stands


SIGAR Inspection 13-2/Afghan National Police Training Center                                                      Page 7
Table I - Phase I Scope of Work
                 Item                 Building Number                            Description

Primary reception center              159                 Building and parking

                                                          Capable of providing power to phases I and II and
Prime power plant                     137
                                                          electrical distribution system

Range security fencing                N/A                 With force protection lighting for facilities

Refueling point and fuel storage      135-136             N/A

Sanitary sewer collection system                          No holding tanks allowed; capable of providing
                                      144
and wastewater treatment plant                            treatment for phases I and II

Senior barracks                       107                 With latrine, showers, ablution, laundry for 100 staff

                                                          Gravel, drainage structures, phase I paving, and
Site grading, gravel road network     N/A
                                                          sidewalks

Solid waste collection points         N/A                 For dumpsters

Spare parts and operation and
                                      N/A                 Phase I
maintenance training

                                                          With latrine, showers, ablution, and laundry for 250
Staff barracks                        105-106
                                                          staff

Stone force protection wall           N/A                 Enclose phases I and II footprint

Student and faculty dining facility   126                 Capable of seating 500 at one sitting

                                                          Each with latrine, showers, ablution, and laundry for
Student barracks                      114-120
                                                          900 students

Training ranges and safety fence
                                      300, 303            N/A
development

Vehicle maintenance facility          133                 With petroleum, oil, and lubricants; wash rack

                                      142, 143A, 143B &   Capable of providing water for phases I and II (3 wells,
Water sources
                                      143C                pumps, tanks)

Source: Contract documents provided by USACE-TAN.




SIGAR Inspection 13-2/Afghan National Police Training Center                                                         Page 8
Table II shows the scope of work for phase II of the design-build contract.

Table II - Phase II Scope of Work
                  Item              Building Number                              Description

                                                         Concrete masonry unit, stucco finish, on pre-engineered
2-story barracks (8)                211-214, 216-219
                                                         long span steel frame with life support and laundry

                                                         Concrete masonry unit, stucco finish, on pre-engineered
2-story senior barracks             209                  long span steel frame with life support and laundry;
                                                         separate female barracks

                                                         Concrete masonry unit, stucco finish, on pre-engineered
2-story staff barracks (2)          207-208              long span steel frame with attached life support and
                                                         laundry

Auditorium                          222                  N/A

Classroom buildings (4)             204-206, 210         2-story, concrete masonry unit, stucco finish

Classroom toilets (3)               204A, B, and C       1-story, concrete masonry unit, stucco finish

Headquarters building               200                  Concrete masonry unit

Concrete bunkers                    N/A                  For 200 students and 500 staff

Dining facility                     215                  Capable of seating 500 at one sitting

                                                         Tank, distribution system, and hydrants collected from 216-
Gray water collection               236
                                                         219

Gymnasium                           221                  N/A

Live fire driving course            304                  N/A

Parade ground                       233, 233A            With adjacent green

Phase II roads                      N/A                  With concrete sidewalks

Spare parts and operation and
                                    N/A                  For phase II
maintenance training

Volleyball court                    226                  N/A

Source: Contract documents provided by USACE-TAN.




SIGAR Inspection 13-2/Afghan National Police Training Center                                                   Page 9
APPENDIX IV - COMMENTS FROM THE NATO TRAINING MISSION-
AFGHANISTAN/COMBINED SECURITY TRANSITION COMMAND-AFGHANISTAN




                                                               SIGAR Inspection 12-04
                                                               is now SIGAR Inspection
                                                               13-2.




SIGAR Inspection 13-2/Afghan National Police Training Center                Page 10
APPENDIX V - COMMENTS FROM THE U.S. ARMY CORPS OF ENGINEERS




                                                               SIGAR Draft Report
                                                               12-04 is now SIGAR
                                                               Inspection Report
                                                               13-2.




SIGAR Inspection 13-2/Afghan National Police Training Center             Page 11
SIGAR Inspection 13-2/Afghan National Police Training Center   Page 12
SIGAR Inspection 13-2/Afghan National Police Training Center   Page 13
APPENDIX VI - ACKNOWLEDGMENTS

Crawford “Les” Thompson, Senior Inspections Manager
Milton Naumann, Auditor-in-Charge
Warren Anthony, Senior Auditor
William “Lee” Dillingham, Senior Engineer
Lise Pederson, Senior Engineer




SIGAR Inspection 13-2/Afghan National Police Training Center   Page 14
                      This inspection was conducted under project code SIGAR I-004




SIGAR Inspection 13-2/Afghan National Police Training Center                         Page 15
              SIGAR’s Mission
                                                   The mission of the Special Inspector General for Afghanistan
                                                   Reconstruction (SIGAR) is to enhance oversight of programs for the
                                                   reconstruction of Afghanistan by conducting independent and
                                                   objective audits, inspections, and investigations on the use of
                                                   taxpayer dollars and related funds. SIGAR works to provide accurate
                                                   and balanced information, evaluations, analysis, and
                                                   recommendations to help the U.S. Congress, U.S. agencies, and
                                                   other decision-makers to make informed oversight, policy, and
                                                   funding decisions to:
                                                                improve effectiveness of the overall reconstruction
                                                                 strategy and its component programs;
                                                                improve management and accountability over funds
                                                                 administered by U.S. and Afghan agencies and their
                                                                 contractors;
                                                                improve contracting and contract management
                                                                 processes;
                                                                prevent fraud, waste, and abuse; and
 Obtaining Copies of SIGAR                                      advance U.S. interests in reconstructing Afghanistan.
  Reports and Testimonies
                                                   To obtain copies of SIGAR documents at no cost, go to SIGAR’s Web
                                                   site (www.sigar.mil). SIGAR posts all publically released reports,
                                                   testimonies, and correspondence on its Web site.



To Report Fraud, Waste, and
      Abuse in Afghanistan                         To help prevent fraud, waste, and abuse by reporting allegations of
   Reconstruction Programs                         fraud, waste, abuse, mismanagement, and reprisal, contact SIGAR’s
                                                   hotline:
                                                                Web: www.sigar.mil/fraud
                                                                Email: sigar.pentagon.inv.mbx.hotline@mail.mil
                                                                Phone Afghanistan: +93 (0) 700-10-7300
                                                                Phone DSN Afghanistan: 318-237-3912 ext. 7303
                                                                Phone International: +1-866-329-8893
                                                                Phone DSN International: 312-664-0378
                                                                U.S. fax: +1-703-601-4065


                                                   Public Affairs Officer
                  Public Affairs                                Phone: 703-545-5974
                                                                Email: sigar.pentagon.ccr.mbx.public-affairs@mail.mil
                                                                Mail: SIGAR Public Affairs
                                                                 2530 Crystal Drive
                                                                 Arlington, VA 22202

       SIGAR Inspection 13-2/Afghan National Police Training Center                                               Page 16
